TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                  The Modernized e-File Project Can Improve
                  the Management of Expected Capabilities
                           and Associated Costs



                                       December 27, 2006

                              Reference Number: 2007-20-005




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information
 3(d) = Identifying Information - Other Identifying Information of an Individual or Individuals


 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                 DEPARTMENT OF THE TREASURY
                                                      WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                December 27, 2006


 MEMORANDUM FOR CHIEF INFORMATION OFFICER


 FROM:                          Michael R. Phillips
                                Deputy Inspector General for Audit

 SUBJECT:                       Final Audit Report – The Modernized e-File Project Can Improve the
                                Management of Expected Capabilities and Associated Costs
                                (Audit # 200620013)

 This report presents the results of our review of the Modernized e-File (MeF) Project’s1
 development and deployment activities. The overall objective of this review was to determine
 whether the MeF Project’s release activities are ensuring its electronic filing capabilities are
 efficiently providing the intended benefits to the Internal Revenue Service (IRS) and taxpayers.
 This review was part of the Treasury Inspector General for Tax Administration’s Fiscal
 Year 2006 Information Systems Programs audit plan for reviews of the IRS’ modernization
 efforts.

 Impact on the Taxpayer
 The MeF system provides electronic filing capability to businesses and tax exempt organizations
 that previously had to file paper returns. Improvements in the management of the MeF Project’s
 capabilities and associated costs can help meet the goal to replace the IRS’ current tax return
 filing technology with a modernized, Internet-based electronic filing platform. This will serve to
 streamline filing processes and reduce the costs associated with the paper-based IRS.

 Synopsis
 MeF Release 3.2 went into production in January 2006. However, 53 of the Project’s
 requirements were deferred to later releases. The MeF system also experienced problems in its


 1
     Appendix V presents a Glossary of Terms.
                The Modernized e-File Project Can Improve the Management of
                        Expected Capabilities and Associated Costs



ability to handle the number of returns filed during the March 2006 peak tax return filing period.
The MeF Project team reported that tests performed in June 2006 demonstrated the MeF system
would be ready to process the projected September 2006 peak tax return volume. On
October 5, 2006, IRS management advised us that the MeF system successfully processed the
September 2006 anticipated volumes without any issues.
The MeF Project’s plans for processing additional tax forms are uncertain, including plans to
schedule development of the U.S. Individual Income Tax Return (Form 1040) family, which are
pending approval from the Office of Management and Budget. As a result of the uncertainties,
the MeF Project has experienced:
   y   The inability to use fixed-price contracts. When release requirements are not defined and
       releases are not associated with available funding, project management’s ability to use
       fixed-price contracts is limited and the successful completion of project development
       may be delayed.
   y   Difficulty in managing the Project’s funding and contract accounting. Additional funding
       was needed to add controls to reduce potential system security threats and to implement
       unplanned system changes. Funds designated for future release development were used
       to develop these controls and system changes, although Congress specifically directed the
       IRS to stop shifting funds between releases and to notify the Congressional committees
       of any proposed changes to the Modernization program expenditure plans. Further, the
       MeF Project team has not performed an analysis to assess the cost effect on the current
       release and the requirements planned for deployment, as well as the effect on funding
       availability to develop the deferred requirements in future releases.
   y   Delays in negotiations and approvals of the Project’s contracting actions. Without
       achieving timely agreement on contract costs, completion of project development and
       deployment activities are at risk. Also, without adequate coordination between the
       Project team and the Procurement Office in all contract changes, the IRS could be paying
       the contractor for work that has not been authorized. In addition, protracted claim
       settlement activities with the contractor could occur if the IRS decides to not pay for
       unauthorized work.

Recommendations
The Chief Information Officer (CIO) should ensure the MeF Project office involves the
Enterprise Service organization’s Business Rules and Requirements Management office in its
efforts to define release requirements. The definition of requirements should incorporate the
concepts and plans for the Modernization and Information Technology Services organization’s
Information Technology Modernization Vision and Strategy and should include the content of
each release, the expected deployment dates, and the anticipated funding for the release work.

                                                                                                 2
                The Modernized e-File Project Can Improve the Management of
                        Expected Capabilities and Associated Costs



Upon plan approval, the MeF Project team should attempt to use fixed-price contracts based on
anticipated funding and the approved release scope in accordance with existing contract
guidance.
To appropriately manage MeF Project funding, the CIO should ensure prompt notification to the
Congressional committees of any proposed changes to future Modernization program
expenditure plans. The CIO also needs to identify the cost effect of deferring significant and
material project release requirements or work segments to future releases. This process should
help prevent payment for the same work more than once in the event significant and material
requirements are deferred to another release.
The CIO should direct the MeF Project team to work with the Procurement Office to complete
the negotiations of work previously completed and clarify the policy for escalating failed
negotiation attempts. The CIO should ensure the IRS Procurement Office develops additional
guidance to work with project development teams to timely monitor contractor progress and
ensure work is properly authorized.

Response
IRS management agreed with five of our six recommendations. The CIO plans to involve the
Business Rules and Requirements Management office in its efforts to define requirements and
incorporate concepts and plans for the Modernization and Information Technology Services
organization’s Information Technology Modernization Vision and Strategy into the MeF Project.
To address the need to complete plans for future releases, the MeF Project has a defined
sequencing plan, which includes implementing Release 5 in January 2008. The IRS believes that
the attempt to use fixed-price task orders should occur after the stabilization of each release’s
Logical Design and Physical Design and will evaluate the appropriateness of using fixed-price
contracts for Release 6. The CIO has developed policies and procedures to ensure prompt
notification to the Congressional committees of any proposed changes to future expenditure
plans. However, the CIO disagreed to implement a process to identify cost effects of deferring
significant and material project release requirements or work segments to future releases.
The CIO agreed with the recommendation to direct the MeF Project team to work with the
Procurement Office to complete negotiations of work previously completed and to clarify the
policy for escalating failed negotiation attempts. Additionally, the IRS Procurement Office
developed additional guidance to timely monitor contractor progress and ensure work is properly
authorized. Management’s complete response to the draft report is included as Appendix VI.




                                                                                                3
                The Modernized e-File Project Can Improve the Management of
                        Expected Capabilities and Associated Costs




Office of Audit Comment
We appreciate the CIO’s plans to involve the Business Rules and Requirements Management
office in its efforts to define requirements and incorporate concepts and plans for the
Modernization and Information Technology Services organization’s Information Technology
Modernization Vision and Strategy into the MeF Project. However, we are concerned about the
rationale provided for not using fixed-priced contracts and the absence of controls to assess the
cost effect of deferring requirements to future releases.
The CIO’s response states the MeF Project has been unable to use fixed-priced contracts due to
project funding uncertainties, delays in receiving required funding, and that the IRS must enter
into fixed-price contracts with appropriated, rather than anticipated funding. During our
August 24, 2006, meeting to present our report findings, the MeF Project managers were in
attendance when the IRS Director of Procurement stated incremental funding of Business
Systems Modernization Projects was not a problem since it had been agreed to by the Office of
Management and Budget. This funding agreement should alleviate the concern about the
availability of funds to enter into fixed-price contracts.
We also have significant concerns about the absence of controls to assign and track project
requirement costs. The CIO responded that it is not an appropriate or productive use of
resources to cost deferred requirements and that an impact assessment is performed to determine
the best way to leverage deferred requirement efforts in the future. The process of costing
deferred requirements is actively performed in the management of other projects such as the
Customer Account Data Engine project, the foundation for the IRS’ Business System
Modernization. Recent Customer Account Data Engine task order modifications included the
associated costs assigned to eight requirements deferred to subsequent releases. We continue to
believe the practice used by the Customer Account Data Engine project should be implemented
by other projects to help control costs. In addition, we requested but were never provided
evidence of any requirement deferral impact assessments on current or future releases.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs),
at (202) 622-8510.




                                                                                                    4
                      The Modernized e-File Project Can Improve the Management of
                              Expected Capabilities and Associated Costs




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          The Modernized e-File Project Has Provided Electronic Filing
          Capability to Corporations and Tax Exempt Organizations
          and Is Continuing Application Development ...............................................Page 3
          The Modernized e-File Project Has Not Completely Defined
          Its Release Requirements and Release Schedule to Allow
          Use of Fixed-Price Contracts ........................................................................Page 5
                    Recommendation 1:........................................................Page 7

                    Recommendation 2:........................................................Page 8

          Extended Development, Deferral, and Additions to Requirements
          Have Made Modernized e-File Project Funding and Contract
          Accounting Difficult .....................................................................................Page 9
                    Recommendations 3 and 4: ..............................................Page 11

          Negotiations and Approvals of Modernized e-File Project Contracting
          Actions Were Not Always Accomplished Timely........................................Page 12
                    Recommendation 5:........................................................Page 13

                    Recommendation 6:........................................................Page 15


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 16
          Appendix II – Major Contributors to This Report ........................................Page 18
          Appendix III – Report Distribution List .......................................................Page 19
          Appendix IV – Enterprise Life Cycle Overview ..........................................Page 20
          Appendix V – Glossary of Terms .................................................................Page 24
          Appendix VI – Management’s Response to the Draft Report ......................Page 30
      The Modernized e-File Project Can Improve the Management of
              Expected Capabilities and Associated Costs




                    Abbreviations

CIO              Chief Information Officer
ELC              Enterprise Life Cycle
FTE              Full-Time Equivalent
IRS              Internal Revenue Service
MeF              Modernized e-File
                   The Modernized e-File Project Can Improve the Management of
                           Expected Capabilities and Associated Costs




                                             Background

The Modernized e-File (MeF) Project’s1 goal is to
replace the Internal Revenue Service’s (IRS) current tax          The MeF Project aims to
return filing technology with a modernized,                   increase electronic tax return
Internet-based electronic filing platform. Providing this     filing through a system that is
capability for filing 330 forms through the MeF system         efficient and easy to access,
supports and facilitates the IRS’ commitment to achieve              use, and maintain.
the IRS Restructuring and Reform Act of 19982 goal of
receiving “at least 80 percent of all tax returns in
electronic form by the year of 2007.” This Project also serves to streamline filing processes and
reduce the costs associated with the paper-based IRS.
The MeF system will be able to accept multiple tax return types and multiple tax returns
submitted in the same transmission. Additionally, the MeF system will allow:
    •   The IRS to reduce costs associated with receiving, processing, manually entering data,
        and resolving data entry errors from paper returns.
    •   The IRS to reduce system maintenance costs by using the Internet as the electronic means
        for filing.
    •   Taxpayers, tax practitioners, and the IRS to reduce the amount of storage space needed
        for paper returns.
    •   Taxpayers and tax practitioners to save time and money associated with copying,
        assembling, and mailing a return.
    •   State agencies to electronically receive tax and information return data.
    •   Taxpayers, tax practitioners, and IRS employees to benefit from the increased amount of
        data available to customer support personnel.
In January 2005, the Department of the Treasury issued Treasury Decision 9175 requiring
electronic tax return filing for certain corporations and exempt organizations. The Decision
requires the following taxpayers filing at least 250 returns during the calendar year to file tax
returns electronically for the taxable years ending on or after December 31, 2005:



1
 Appendix V presents a Glossary of Terms.
2
 Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                                                                                                             Page 1
                The Modernized e-File Project Can Improve the Management of
                        Expected Capabilities and Associated Costs



   •   Corporations with assets of $50 million or more that file a U.S. Corporation Income Tax
       Return (Form 1120) or U.S. Income Tax Return for an S Corporation (Form 1120S).
   •   Exempt organizations with assets of $100 million or more that file a Return of
       Organization Exempt From Income Tax (Form 990).
This Decision lowers the asset amount to $10 million or more for the above returns and adds
returns for private foundations with taxable years ending on or after December 31, 2006.
The MeF Project has completed the following releases:
   •   Release 1 developed the infrastructure, application base, and support for 53 forms filed
       by corporations and 6 forms filed by exempt organizations. This Release’s end product
       provided an option for Internet-based filing of Form 1120, Form 1120S, and Form 990
       returns. The IRS deployed this Release in February 2004.
   •   Release 2 added the remaining 44 forms associated with corporations and the public
       disclosure capabilities required by the Tax Exempt and Government Entities Division.
       The IRS deployed this Release in August 2004.
   •   Release 3.1 incorporated the Return for Private Foundation (Form 990-PF) and the
       ability to file extensions for Form 1120 and Form 1120S. The IRS deployed this Release
       in January 2005.
   •   Release 3.2 added the Federal/State Single Point Filing System platform and the
       Federal/State components for Form 1120 and Form 990. This Release also provided
       operational functionality and interfaces to enhance the MeF system internally. The IRS
       deployed this Release in January 2006.
In addition, the MeF platform will be used by the Excise Tax e-File and Compliance Project.
The Excise Tax e-File and Compliance Project will assist IRS employees who are auditing the
tax paid on diesel fuel.
This review was performed at the Modernization and Information Technology Services
organization’s facilities in New Carrollton, Maryland, during the period February through
August 2006. The audit was conducted in accordance with Government Auditing Standards.
Detailed information on our audit objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II.




                                                                                          Page 2
                The Modernized e-File Project Can Improve the Management of
                        Expected Capabilities and Associated Costs




                                Results of Review

The Modernized e-File Project Has Provided Electronic Filing
Capability to Corporations and Tax Exempt Organizations and Is
Continuing Application Development
The MeF system provides electronic filing capability to             Along with its success, the
businesses and tax exempt organizations that previously had        MeF Project has continued to
to file paper returns. The number of returns filed through           experience challenges in
the MeF system has continued to increase.                        providing all planned capabilities.

For example, in 2005, an estimated 3 percent of the
corporate and tax exempt organizations tax returns and
related applications for extensions were electronically filed (212,900 corporate tax returns and
47,900 related applications for extensions; 4,800 tax exempt organizations returns and
1,900 related applications for extensions), while approximately 6 percent of the corporate and tax
exempt organizations tax returns and related applications for extensions were projected to be
electronically filed in 2006. As of August 6, 2006, the MeF system had processed
405,151 corporate returns and 381,511 related applications for extensions, and 7,396 tax exempt
organizations tax returns and 8,629 related applications for extensions. Corporate and tax
exempt organizations tax returns and applications for extensions filings between January 1 and
August 6, 2006, showed a 279 percent increase in filings over all of Calendar Year 2005.
The MeF Project will also benefit the IRS and taxpayers by reducing manual processing and
storage costs for paper returns. The MeF Project’s Exhibit 300 goals for Fiscal Year 2005
included:
   •   Decreasing the number of Full-Time Equivalents (FTE) needed to conduct return
       processing of paper Forms 1120 and 990 returns from 1,044 FTEs to 1,014 FTEs.
   •   Decreasing the total IRS annual storage costs for Forms 1120 and 990 returns from
       $5,392,000 to $5,317,000.
While the MeF Project implemented software enabling additional electronic filing capability, the
FTE and storage cost savings have not been realized yet by the IRS. Labor redeployments to
reduce FTE processing needs may begin to be realized in Fiscal Year 2007. Although significant
reductions in paper return storage are resulting from filings through the MeF system, no
estimates are available for when related storage cost reductions will occur.
The MeF system experienced problems in its ability to handle the number of returns filed during
the March 2006 peak tax return filing period, and the MeF Project team developed lessons
                                                                                            Page 3
              I    The Modernized e-File Project Can Improve the Management of
              1
                          Expected Capabi/ities and Associated Costs




accept and process tax returns and provide concurrent access to users. The MeF Project team
reported the June 2006 stress test demonstrated the MeF system would be ready to accept and
process the projected September 2006 peak tax return volume. On October 5,2006, IRS
management advised us that the MeF system successfully processed the September 2006
anticipated volumes without any issues.

MeF Project release capabilities have been postponed, and the MeF Project
release schedule for processina &tx forms is uncertain
Although MeF Release 3.2 went into production in January 2006, 53 project requirements were
deferred to later releases. The deferred requirements include capabilities to create and store
system error messages and capture audit trails, provide additional system performance measures,
monitor infrastructure transactions and processes, and implement all necessary system security
controls.
One particularly important requirement that was deferred involves the ability of the MeF system
to display return information within stipulated time periods. This requirement was also
discussed in a prior Treasury Inspector General for Tax Administration report3 and has been a
deferred requirement for the MeF system since Release 1. Although tests performed during this
audit showed the largest tax return files could be displayed for viewing by the IRS, the MeF
Project team has deferred completion of this requirement until deployment of Release 4 because
all requirement criteria could not be met. The ability to display returns will help ensure the
efficiency of IRS personnel who access returns through the MeF system.
The MeF Project's plans for processing additional tax forms
(e.g., U.S. Individual Income Tax Return (Form 1040)) are
                                                                      The MeF release structure
uncertain. The most recent plans show Release 5 will be                still is not definite as to
completed in January 2008 and will enhance the processing            which forms and schedules
efficiency of forms currently filed through the MeF system              will be provided after
and add the U.S. Income Tax Return of a Foreign Corporation                     Release 4.
(Form 1120-F). The IRS has publicly communicated that the
Form 1040 will be available in January 2009 as part of
Release 6; however, the IRS has not decided how the Form 1040 family of returns and related
schedules will be made available for use (in phases or all at once). Also, plans to schedule MeF



3
 Controls Need to Be Strengthened to Ensure the Modernized e-File Project Meets Its Expectations (Reference
Number 2005-20-103, dated September 2005).
                                                                                                        Page 4
                     The Modernized e-File Project Can Improve the Management of
                             Expected Capabilities and Associated Costs



Project development of the Form 1040 family are pending approval from the Office of
Management and Budget.
In addition, development plans are not final for the U.S. Income Tax Return for Estates and
Trusts (Form 1041) and the Exempt Organization Business Income Tax Return (Form 990-T).
The MeF Project release schedule previously planned to include these forms in Release 4, but
these plans were canceled. These forms are not specifically included in the current plans for the
future releases.
As a result of the changes to project requirements and the tax forms to be included in future
releases, the MeF Project has experienced:
      y    The inability to use fixed-price contracts.
      y    Difficulty in managing MeF Project funding and contract accounting.
      y    Delays in negotiations and approvals of MeF Project contracting actions.

The Modernized e-File Project Has Not Completely Defined Its Release
Requirements and Release Schedule to Allow Use of Fixed-Price
Contracts
The IRS issued contracting guidance on April 30, 2004,
entitled Enabling Fixed-Price Contracting for Business
Systems Modernization Task Orders, requiring fixed-price           The use of fixed-price contracts
contracts and task orders for Business Systems Modernization             should lead to more
                                                                      cost-effective acquisitions,
acquisition projects at the appropriate life cycle development         better value, and greater
phase, unless the Federal Government’s interest is best served               competition.
by other contract types. A fixed-price contract is suitable for
acquiring supplies or services on the basis of reasonably
definite functional or detailed specifications. This contract
type can be used when the Contracting Officer can establish fair and reasonable prices at the
outset, performance uncertainties can be identified, and reasonable estimates of their cost effect
can be made. The contractor has to be willing to accept a fixed price representing assumption of
the risks involved. In addition, the Federal Acquisition Regulation4 specifically states that the
extended use of cost-reimbursement or time and materials contracts should be avoided after
experience provides a basis for firmer pricing.
The Enterprise Life Cycle (ELC)5 established Milestone 4 as the business systems development
and enterprise deployment decision point. The Milestone 4 activities are separated by two


4
    48 C.F.R. pt 1-53 (2002).
5
    Appendix IV presents an overview of the ELC.
                                                                                            Page 5
                  The Modernized e-File Project Can Improve the Management of
                          Expected Capabilities and Associated Costs



checkpoints. Milestone 4A activities involve further requirements definitions, development of
the system’s physical design, and determination of the applicability of fixed-price contracting to
complete system development and deployment. Once the requirements are finalized and agreed
to by the IRS and the contractor, a fixed-price contract can be used to achieve Milestone 4B.
We have previously reported the IRS is not using fixed-price contracts for modernization
contracts despite guidance requiring the use of this contract type when possible.6 The MeF
Project is not using fixed-price contracting agreements and the MeF Release 3.2 and 4
development activities are included in four separate contracts. The following contract types are
being used:
    •   The PRIME contract for developing the technological infrastructure supporting the
        MeF system is a hybrid cost-plus-fixed-fee term (level of effort) and cost-plus-fixed-fee
        completion contract.
    •   The MeF Project used cost-plus-fixed-fee term (level of effort) and
        cost-plus-incentive-fee contracts for system development.
    •   The work related to adding new MeF forms and schedules to the Modernized Tax Return
        Database is being completed under a General Services Administration contract.
    •   The contract providing engineering and technical support to the MeF Project is a level of
        effort contract.
Since the MeF Project has already had several releases developed and the foundation of the
application is complete, the IRS should have the experience to provide the basis for negotiating
fixed-price contracts for future development activities. However, MeF Project management
stated funding to support the Project was received incrementally, thereby preventing the use of
fixed-priced contracting. Further, management stated the decisions about which tax forms to
include in each release have not been finalized and the original release schedule has been revised
several times. Therefore, the uncertainty of the release content and schedule has prevented the
use of fixed-price contracts.
The Modernization and Information Technology Services organization is trying to better focus
the management of the development of modernized systems, such as the MeF system, through its
Information Technology Modernization and Vision Strategy. A significant aspect of this
5-year plan is to address the priorities around modernizing tax administration. The MeF system
is included in the Information Technology Modernization and Vision Strategy; however, the
contents of the MeF releases are not specified.
The Modernization and Information Technology Services organization has also established a
Business Rules and Requirements Management office in the Enterprise Services organization.

6
 Focusing Management Efforts on Long-Term Project Needs Will Help Development of the Customer Account Data
Engine Project (Reference Number 2006-20-076, dated June 2006).
                                                                                                  Page 6
                The Modernized e-File Project Can Improve the Management of
                        Expected Capabilities and Associated Costs



This office’s mission is to provide practices, methodologies, and services supporting IRS
projects to achieve desired business goals. Although this office is available to provide services
to help in the development and management of project requirements, it has not been asked to
participate in the formulation and definition of the MeF Project requirements.
The former Associate Chief Information Officer (CIO), Applications Development, has
suggested the IRS narrow the scope of project development activities to allow for better
management of requirements and system development. This suggestion includes dividing
releases into smaller segments (e.g., semi-annual deployments instead of annual). The MeF
Project’s release deployments have generally been scheduled on an annual basis.
The benefits of fixed-price contracting for the management of the MeF Project will be realized
only after the project requirements and the release content and schedule are fully developed and
agreed to. The absence of the participation and expertise of the Business Rules and
Requirements Management office in defining requirements may have contributed to the
uncertainty of MeF system tax form deployment plans. When release requirements are not
defined and releases are not associated with available funding, project management’s ability to
use fixed-price contracts is limited and the successful completion of the project development
may be delayed.

Recommendations
Recommendation 1: The CIO should ensure the MeF Project office involves the Enterprise
Service organization’s Business Rules and Requirements Management office in its efforts to
define requirements. The definition of requirements should incorporate the concepts and plans
for the Modernization and Information Technology Services organization’s Information
Technology Modernization Vision and Strategy. Incorporating this 5-year plan into the
MeF Project should help stabilize the Project’s release schedule and improve the Project team’s
ability to establish fixed-price contracts for future release development and deployment.
       Management’s Response: The CIO agreed with this recommendation. Business
       Rules and Requirements Management office representatives attended MeF Release 5
       requirements meetings. The MeF Project is in compliance with the IRS Enterprise
       Transition Plan, Volume 1: Enterprise Transition Strategy, dated September 30, 2006,
       which reflects MeF Releases 4, 5, and 6. During the next revision of this document, the
       MeF Project team will work with the Enterprise Architecture organization to reflect the
       full MeF Sequencing Strategy, as approved. The Project team has incorporated the
       5-year plan into the Release Sequencing Strategy and will incorporate the Information
       Technology Modernization Vision and Strategy into future release processes. This will
       commence with Release 6 actions. The IRS believes the attempt to use fixed-price task
       orders should occur in Milestones 4B and 5, after the stabilization of each release’s
       Logical Design (Milestone 3) and Physical Design (Milestone 4A). The MeF Project has

                                                                                            Page 7
                The Modernized e-File Project Can Improve the Management of
                        Expected Capabilities and Associated Costs



       been unable to use fixed-price contracts due to project funding uncertainties and delays in
       receiving required funding. The IRS understands the Treasury Inspector General for Tax
       Administration has discussed the issue of incremental funding with the Procurement
       Office; however, the MeF Project cannot enter into fixed-price arrangements until it
       receives all required funding. The IRS must enter into fixed-price contracts with
       appropriated, rather than anticipated, funding.
       Office of Audit Comment: We appreciate the CIO’s plans to involve the Business
       Rules and Requirements Management office in its efforts to define requirements and
       incorporate concepts and plans for the Modernization and Information Technology
       Services organization’s Information Technology Modernization Vision and Strategy into
       the MeF Project. The CIO states the MeF Project has a defined sequencing plan that has
       been communicated to all levels of the IRS, the Department of the Treasury, and the
       Office of Management and Budget. However, its content and schedule were not
       approved by the Department of the Treasury or the Office of Management and Budget at
       the time this audit was conducted. Defined requirements and an approved release
       schedule will enable the IRS to enter into reasonable fixed-price contracts.
       The CIO’s response states the MeF Project has been unable to use fixed-priced contracts
       due to project funding uncertainties and delays in receiving required funding, and that the
       IRS must enter into fixed-price contracts with appropriated, rather than anticipated,
       funding. During our August 24, 2006, meeting to present our report findings, a
       discussion occurred about fixed-price contracting and project funding. The MeF Project
       managers were in attendance at this meeting when the IRS Director of Procurement
       stated incremental funding of Business Systems Modernization Projects was not a
       problem since it had been agreed to by the Office of Management and Budget. This
       funding agreement should alleviate the concern about the availability of funds to enter
       into fixed-price contracts and allow the MeF Project to comply with IRS guidance
       requiring fixed-price contracts and task orders for Business Systems Modernization
       acquisition projects at the appropriate life cycle development phase. In addition,
       implementation of Recommendation 2 below by including plans for reduced scope
       releases should also help alleviate the funding concerns.
Recommendation 2: The CIO should ensure the MeF Project team completes its plans for
future MeF Project releases, including its plans for reduced scope releases. These plans should
include the content of each release, the expected deployment dates, and the anticipated funding
for the release work. Upon plan approval, the MeF Project team should attempt to use
fixed-price contracts based on anticipated funding and the approved release scope in accordance
with existing contract guidance.
       Management’s Response: The CIO agreed with this recommendation. The MeF
       Project has a defined sequencing plan that was developed in collaboration with IRS
       business partners. This plan, communicated to all levels of the IRS and to the

                                                                                           Page 8
                The Modernized e-File Project Can Improve the Management of
                        Expected Capabilities and Associated Costs



       Department of the Treasury and the Office of Management and Budget, is in the
       execution stage. The scheduled implementation date for Release 5 is January 2008, as
       documented in the plan. The IRS must enter into fixed-price contracts with appropriated,
       rather than anticipated, funding. The IRS believes the use of fixed-price task orders
       should occur in Milestones 4B and 5, after stabilization of each release’s Logical Design
       (Milestone 3) and Physical Design (Milestone 4A) and development begins. As
       Release 6 activities begin, the MeF Project team will evaluate the appropriateness of
       using fixed-price contracts.
       Office of Audit Comment: As previously stated, the CIO’s response indicates the
       MeF Project has a defined sequencing plan that has been communicated to all levels of
       the IRS, the Department of the Treasury, and the Office of Management and Budget.
       However, its content and schedule were not approved by the Department of the Treasury
       or the Office of Management and Budget at the time this audit was conducted.
       The CIO’s response does not address the portion of the recommendation dealing with
       reduced scope releases. We continue to believe the MeF Project release schedule could
       benefit from dividing releases into smaller segments (e.g., semi-annual deployments
       instead of annual). The smaller releases would not only allow for a more manageable
       scope, but also enable the IRS to align the Project’s release scope with available funding.

Extended Development, Deferral, and Additions to Requirements
Have Made Modernized e-File Project Funding and Contract
Accounting Difficult
In November 2005, MeF Project management identified the need to obtain additional funds to
complete development and deployment of MeF Release 3.2. According to the MeF Project
Release Manager, additional funding was needed to add controls to reduce potential system
security threats. In addition, MeF Release 3.2 had to implement unplanned system changes
enabling the processing of returns received due to the Treasury Decision 9175 electronic filing
mandate. MeF Project management took the following actions:
   y   On September 28, 2005, the MeF Project team requested the use of $2.65 million of
       reserve funds to complete MeF Release 3.2. The Filing and Processing Management
       Executive Steering Committee approved the request
       on October 20, 2005.
   y   On November 14, 2005, the Modernization and                 MeF Project management
       Information Technology Services organization’s              needs to ensure funds are
                                                                  used for the authorized and
       Enterprise Governance Committee approved the
                                                                  approved purposes and are
       transfer of $4.2 million from Release 4 to complete          tracked to ensure their
       the development, testing, and implementation of                  accountability.
       Release 3.2. The minutes from the meeting noted
                                                                                           Page 9
                The Modernized e-File Project Can Improve the Management of
                        Expected Capabilities and Associated Costs



       that moving funds from Release 4 would not jeopardize the cost, schedule, or scope of
       that Release. The MeF Project’s Cost Variance Statement describes the basis for the
       shifting of funds from Release 4 to Release 3.2 as follows, “As originally envisioned,
       Release 4 would include U.S. Partnership Return of Income (Form 1065), Form1041, and
       Form 990-T. However, once the Fiscal Year 2005 budget was finalized it was clear that
       not enough Release 4 funding was received to cover all 3 forms so Forms 1041 and
       990-T were removed from the Release. Removing those 2 forms freed up $4.2 million
       for use.”
   y   On May 15, 2006, the IRS Infrastructure Shared Services organization agreed to fund the
       security requirements that were deferred from Release 3.2 to Release 4.
As part of the approval of the IRS Fiscal Years 2005 and 2006 Business Systems Modernization
expenditure plans, Congress specifically directed the IRS to stop shifting funds between releases.
In May 2005, Congress reminded the IRS it should promptly notify the Congressional
committees of any proposed changes to the expenditure plans. It added that this is consistent
with previous Congressional efforts to be informed of project variances. Again in January 2006,
Congress directed the IRS to disclose fully and timely the shifting of funds between
Modernization projects and the associated effect.
In a May 26, 2006, email, the IRS Legislative Affairs office forwarded a message from the
Associate CIO, Applications Development, notifying Congressional committee members about
plans to make funding changes affecting the Business Systems Modernization Program across
Fiscal Years 2004, 2005, and 2006. The email does not specify that $4.2 million was shifted
between MeF Project releases in November 2005. The MeF Project team could not provide any
documentation about notifying the Congressional committees prior to shifting the funds.
As reported above, the MeF Project team could not complete development of all requirements
planned for Release 3.2 and deferred them to Release 4 and later releases. Further, the Project
team could not identify the costs associated with the deferred requirements. The Project team
does not track the costs charged to requirements to ensure the IRS is not paying again in later
releases for work already performed in Release 3.2.
Documentation was not available to show what payments were made for the development of
Release 3.2 requirements that were deferred and what portion of the funding for those
requirements was deferred to Release 4 and later releases. The MeF Project team has not
performed an analysis to assess the cost effect on the current release and the requirements
planned for deployment, as well as the effect on funding availability to develop the deferred
requirements in future releases. Further, a definitive analysis has not been performed to
determine what portion of the deferred work was already developed and paid.




                                                                                          Page 10
                The Modernized e-File Project Can Improve the Management of
                        Expected Capabilities and Associated Costs



Recommendations
Recommendation 3: The CIO should ensure prompt notification to the Congressional
committees of any proposed changes to future expenditure plans.
       Management’s Response: The CIO agreed with this recommendation. On
       April 8, 2006, the CIO implemented a policy to manage and monitor cost and schedule
       changes to a Business Systems Modernization effort. This policy requires an impact
       assessment, governance presentation, and executive approval of the requested change.
       On August 2, 2006, the IRS’ Resource Management organization implemented the use of
       a “Governance Chain for Funding Changes.” This is a checklist of appropriate activities,
       including Congressional, associated with the approval. Following the IRS governance
       approval, Congressional email notification is provided within a reasonable time period,
       subject to Department of the Treasury and Office of Management and Budget approval.
Recommendation 4: The CIO should implement a process to identify the cost effect of
deferring significant and material project release requirements or work segments to future
releases. This process should help prevent payment for the same work more than once in the
event significant and material requirements are deferred to another release.
       Management’s Response: The CIO disagreed with this recommendation. The CIO
       responded that project management best practices require proactive supervision of the
       triple constraints (cost, schedule, and scope). This can result in the decision to defer
       requirements to keep scope, cost, and schedule in alignment and achievable. It is not an
       appropriate or productive use of resources to cost deferred requirements. When it
       becomes necessary to defer or drop a requirement for which significant work is either
       completed or in-progress, the IRS performs an appropriate impact assessment to
       determine the best way to leverage these efforts in the future. Management judgment is
       required to handle these situations on a case-by-case basis.
       Office of Audit Comment: Although the CIO responded that best practices require
       proactive supervision of the triple constraints (cost, schedule, and scope) and that it is not
       an appropriate or productive use of resources to cost deferred requirements, the process
       of assigning costs to deferred requirements is actively performed in the management of
       other projects such as the Customer Account Data Engine project, the foundation for the
       IRS’ Business System Modernization program. For example, recent Customer Account
       Data Engine task order modifications included the associated costs assigned to eight
       requirements deferred to subsequent releases. The modifications described the equitable
       adjustments for work already initiated and to be completed in subsequent releases, as well
       as the negotiated contract adjustments for work de-scoped from the release in
       development. We continue to believe the practice used by the Customer Account Data
       Engine project should be implemented by other projects to help control the cost
       constraint.

                                                                                            Page 11
                  The Modernized e-File Project Can lmptvve the Management of
                         Expected Capabilities and Associated Costs



        The CIO also responded that an impact assessment is performed to determine the best
        way to leverage requirement deferral efforts in the future. However, we requested but
        were never provided evidence of any requirement deferral impact assessments on current
        or future releases.
        The Acquisition Project Manager has overall responsibility for the technical and
        management aspects of a project, as well as changes to the contract and task orders.
        Without the means to associate costs with project requirements or work segments, the
        Acquisition Project Manager cannot control the funds expended on a project to ensure the
        IRS pays only for work performed. Until a control is implemented to identify and
        account for project costs, the MeF Acquisition Project Manager has no means to identify
        the costs devoted to deferred requirements or partially completed work segments.
        In addition, the Standards for Internal Cont~polin the Federal Government7 include the
        standard for control activities which states, "Internal Control activities help ensure that
        management's directives are carried out. Control activities should be effective and
        efficient in accomplishing the agency's control objectives." Examples of control
        activities include proper execution of transactions and events, accurate and timely
        recording of transactions and events, and appropriate documentation of transactions and
        internal controls.

Negotiations and Approvals of Modernized e-File Project Contracting
Actions Were Not Always Accomplished Timely
The MeF Project team includes a contracting representative who works with the IRS
Procurement Office to develop and execute project development activities with vendors. These
development activities were not always timely negotiated or approved.

Costs for work on some project requirements are still beina determined because
of incomplete contract negotiations
The IRS Procurement Office has experienced problems in completing some MeF Project contract
negotiations with the PRIME contractor. For example, negotiations                        d




The Procurement Office has been working to negotiate this contract with the PRIME contractor
since April 26,2005. Gaps in Procurement Office project involvement occurred between
February and July 2006. Although the contract work ended in July 2005 and a negotiated

'Standards for Internal Control in the Federal Government (GAOIAIMD-00-21.3.1, dated November 1999).
                                                                                                  Page 12
                The Modernized e-File Project Can Improve the Management of
                        Expected Capabilities and Associated Costs



agreement with the PRIME contractor has not been accomplished, the Procurement Office has
not escalated the issue to senior management for their assistance in resolving the problems.
When timely agreement on contract costs are not achieved, completion of project development
and deployment activities is at risk. The contractor may cease work until contract negotiations
are complete, or the contractor may continue work without the IRS’ consent. Further, work
performed during the time when terms have not been agreed to may result in subsequent claims
and litigation.

Recommendation
Recommendation 5: The CIO should direct the MeF Project team to work with the
Procurement Office to complete negotiations of work previously completed. Also, the CIO
should work with the Procurement Office to clarify the policy for escalating failed negotiation
attempts, specifically when work is billed and paid even though the billing amount has not been
agreed to. The escalation policy should provide requirements for each level of management to
advise and involve their superior when negotiation inactivity reaches a stated period of time,
such as 15 calendar days.
       Management’s Response: The CIO agreed with this recommendation. On
       July 27, 2006, the Procurement Office completed negotiations in the case cited in the
       report. To clarify the policy for escalating failed negotiation attempts, the Procurement
       Office has revised its escalation policy as follows.
       When the contractor insists on a price or demands a profit or fee that the Contracting
       Officer determines unreasonable and/or insists on terms and conditions that are not in the
       best interest of the Federal Government, and the Contracting Officer has considered all
       other available alternatives (e.g., revising requirements, terms and conditions, feasibility
       of alternative sources) without success in obtaining a final agreement with the contractor,
       an impasse in negotiation has occurred. The Contracting Officer shall elevate the
       contract action to the Branch Chief within 1 business day, after determining that an
       impasse has been reached, for resolution.
       If the Branch Chief and the contractor are unable to resolve the impasse within 30 days,
       the Branch Chief shall inform the Office Director of the issue, and provide alternatives
       for the resolution of the impasse for concurrence. Only as a last resort will an issue be
       elevated above the Office Director level. The disposition of the contract action shall be
       documented in the file.

The MeF Project team did not ensure contracting activities were approved prior to
work beginning
The MeF Project has a contract for engineering and technical support that was modified for
Release 3.2 and Release 4 through 12 contract modifications. Of the 12 contract modifications,
                                                                                           Page 13
                      The Modernized e-File Project Can Improve the Management of
                              Expected Capabilities and Associated Costs



5 contract modifications involving $545,495 were approved by the IRS and the contractor after
work began, and in 2 of the 5 contract modifications after the work was completed. The contract
modifications were for work occurring from February 2005 through June 2006. Table 1 lists the
modifications where the contract period of performance began or was completed before the
modifications were approved.
         Table 1: MeF Contract Modifications Approved After Work Was Initiated

                Period of Performance                  Date Signed by      Additional Amount
                                                     Contracting Officer    of Modification
                 2/1/2005 to 2/28/2005                      2/28/2005                $ 29,370
                 3/1/2005 to 3/31/2005                      3/17/2005                  90,725
                 4/1/2005 to 7/17/2005                      9/13/2005                   None
                 1/1/2006 to 1/31/2006                      1/12/2006                  65,000
                 2/1/2006 to 6/30/2006                      2/14/2006                 360,400
                                                                           Total    $ 545,495
         Source: Amendment of Solicitation/Modification of Contract.

The Federal Acquisition Regulation prescribes requirements for contract modification approvals
and provides that only Contracting Officers acting within the scope of their authority are
empowered to execute contract modifications on behalf of the Federal Government. The
Regulation includes a discussion of the two types of contract modifications, unilateral and
bilateral.8 This section prescribes that bilateral modifications are used to make negotiated
adjustments resulting from the issuance of a change order. The five contract modifications
approved and signed after work began do not meet the process guidelines for bilateral
modifications since the contractor began work before the IRS gave its approval.
Without adequate coordination between the Project team and the Procurement Office in all
contract changes, the IRS could be paying the contractor for work that has not been authorized.
In addition, protracted claim settlement activities with the contractor could occur if the IRS
decides not to pay for unauthorized work. The absence of approval for work, unilaterally
initiated by the contractor, may be in violation of the Federal Acquisition Regulation.




8
    Federal Acquisition Regulation, 48 C.F.R. pt 1-53 (2002).
                                                                                               Page 14
                The Modernized e-File Project Can Improve the Management of
                        Expected Capabilities and Associated Costs



Recommendation
Recommendation 6: The CIO should ensure the IRS Procurement Office develops additional
guidance to work with project development teams to timely monitor contractor progress and
ensure work is properly authorized. Imminent contract expiration dates should also be timely
identified so contract modifications and extensions can be approved before contractors perform
work, thereby helping prevent work stoppages or potential legal actions.
       Management’s Response: The CIO agreed with this recommendation and indicated
       the Acquisition Project Manager Assessment Template used for the Senior Management
       Dashboard Review was modified to identify potential schedule delays that may result in
       any undefinitized contract actions. IRS executives will use this information to ensure
       contract modifications and/or extensions are awarded in a timely manner to prevent work
       stoppages or potential legal actions. The Procurement Office will develop a systemic
       alert process within its Integrated Procurement System. This process will notify the
       Contracting Officer, the Contracting Officer’s Technical Representative, and the
       Contracting Officer’s manager of imminent expiration dates, along with a deadline for
       taking action to extend or renew periods of performance.




                                                                                       Page 15
                     The Modernized e-File Project Can Improve the Management of
                            Expected Capabilities and Associated Costs
       ..


                                                                                         Appendix I

             Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the MeF Project's release
activities are ensuring its electronic filing capabilities are efficiently providing the intended
benefits to the IRS and taxpayers. This review is part of the Treasury Inspector General for Tax
Administration's Fiscal Year 2006 Information Systems Programs audit plan for reviews of the
IRS' modernization efforts. To accomplish this objective, we:
I.          Determined whether MeF Release 3.2 requirements were completed.
            A. Determined the status of Release 3.2 testing and whether all defect resolutions were
               completed.
            B. Determined the reasons and sources for additional Release 3.2 hnding needs.
            C. Determined                                           nd display capabilities were
               meeting the acceptance criteria requested by the business operating divisions.
            D. Determined the status of the States' ability to participate in the FederalIState Single
               Point Filing System.
11.         Determined the status of MeF Release 4 activities allowing the filing of Forms 1065 to
            ensure it was on schedule and whether there was sufficient hnding to complete all the
            Release 4 requirements.
            A. Assessed the status of Release 4 activities and the effect of the deferred capabilities
               from Release 3.2.
            B. Reviewed MeF Release 4 task orders to determine whether hnding was included to
               develop the electronic filing capability for Form 1041, which was previously
               scheduled to be included in Release 4 development.
            C. Determined the effect of the Excise Tax e-File and Compliance project on the
               MeF Project release activities.
111.        Determined the IRS' ability to process returns that will be electronically filed due to the
            regulations mandating hrther electronic filing requirements for corporations and exempt




                                                                                                Page 16
                   The Modernized e-File Project Can Improve the Management of
                           Expected Capabilities and Associated Costs



        organizations1 and how they will assist taxpayers with problems in electronically filing
        their returns.
IV.     Followed-up on issues reported in the Treasury Inspector General for Tax Administration
        report Controls Need to Be Strengthened to Ensure the Modernized e-File Project Meets
        Its Expectations (Reference Number 2005-20-103, dated September 2005) to determine
        whether corrective actions have been taken.




1
  Corporations filing at least 250 returns and with assets of $50 million or more and exempt organizations filing at
least 250 returns with assets of $100 million or more with taxable years ending on or after December 31, 2005, must
file electronically. This Decision lowers the asset amount to $10 million or more for the above returns and adds
returns for private foundations with taxable years ending on or after December 31, 2006.




                                                                                                           Page 17
               The Modernized e-File Project Can Improve the Management of
                       Expected Capabilities and Associated Costs



                                                                              Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Gary V. Hinkle, Director
Edward A. Neuwirth, Audit Manager
Michael A. Garcia, Senior Auditor
Beverly Tamanaha, Senior Auditor
Louis V. Zullo, Senior Auditor
Linda W. Screws, Auditor




                                                                                     Page 18
               The Modernized e-File Project Can Improve the Management of
                       Expected Capabilities and Associated Costs



                                                                         Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Commissioner, Large and Mid-Size Business Division SE:LM
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Tax Exempt and Government Entities Division SE:T
Commissioner, Wage and Investment Division SE:W
Associate Chief Information Officer, Applications Development OS:CIO:B
Associate Chief Information Officer, Enterprise Services OS:CIO:ES
Director, Procurement OS:A:P
Director, Stakeholder Management OS:CIO:SM
Deputy Associate Chief Information Officer, Applications Development OS:CIO:AD
Deputy Associate Chief Information Officer, Business Integration OS:CIO:ES:BI
Deputy Associate Chief Information Officer, Systems Integration OS:CIO:ES:SI
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Associate Chief Information Officer, Applications Development OS:CIO:B
       Director, Procurement OS:A:P
       Director, Program Oversight OS:CIO:SM:PO




                                                                                 Page 19
                The Modernized e-File Project Can Improve the Management of
                        Expected Capabilities and Associated Costs




                                                                                  Appendix IV

                     Enterprise Life Cycle Overview

The ELC is the IRS standard approach to business change and information systems initiatives. It
is a collection of program and project management best practices designed to manage business
change in a successful and repeatable manner. The ELC addresses large and small projects
developed internally and by contractors.
The ELC includes such requirements as:
   •    Development of and conformance to an enterprise architecture.
   •    Improving business processes prior to automation.
   •    Use of prototyping and commercial software, where possible.
   •    Obtaining early benefit by implementing solutions in multiple releases.
   •    Financial justification, budgeting, and reporting of project status.
In addition, the ELC improves the IRS’ ability to manage changes to the enterprise; estimate the
cost of changes; and engineer, develop, and maintain systems effectively. Figure 1 provides an
overview of the layers, paths, phases, and milestones (shown as “MS” in Figure 1) within the
ELC Framework.




                                                                                         Page 20
                                         The Modernized e-File Project Can Improve the Management of
                                                 Expected Capabilities and Associated Costs



                                                                      Figure 1: ELC Framework
  Governance Management




                                                                                            Acquisition Management
                Layer




                                                                                             Program Management

                                                                                      Implementation Project Management
    Layer




                                                           MS0               MS1                MS2             MS3              MS4A         MS4B                MS5


                          Large Custom Path
                          Small Custom Path
  Solution Life Cycle




                          Commercial-Off-the-
                          Shelf Path             Vision and
                                                 Strategy /                           Domain                                          System           System       Operations and
         Layer




                          Joint Application                         Project                         Preliminary Detailed Design
                                                 Enterprise                         Architecture                                    Development      Deployment      Maintenance
                          Development /                        Initiation Phase                    Design Phase     Phase
                                                Architecture                           Phase                                           Phase           Phase            Phase
                          Rapid Application
                                                   Phase
                          Development Path
                          Iterative Custom
                          Path
  Methodology Solution




                                                Various Work    Various Work       Various Work    Various Work    Various Work     Various Work   Various Work
               Layer




                                                Products and    Products and       Products and    Products and    Products and     Products and   Products and
                                                  Reviews         Reviews            Reviews         Reviews         Reviews          Reviews        Reviews
     Layer




                                                                      Developer's Business Change or System Change Methodology



                                                                                  Enterprise Integration, Test, and Evaluation
  Specialty Areas




                                                                                  Business Rules Harvesting and Management
                                                                                             Transition Management
      Layer




                                                                                             Enterprise Architecture
                                                                                    Capital Planning and Investment Control
                                                                                              Security and Privacy
                                                                                  Requirements Development and Management

Source: Graphical representation of the ELC Framework modified from the ELC Guide.

ELC Layers
The ELC is a framework for organizing and using IRS directives, processes, procedures,
templates, and standards to accomplish business change. It is organized as a set of six interacting
layers.
          •                The Management Layer specifies how to plan and control business change programs,
                           projects, acquisitions, and solutions throughout the ELC.
          •                The Governance Layer specifies additional controls imposed from outside the project
                           or program.
          •                The Solution Life Cycle Layer specifies what should be done but not how to do it.
          •                The Solution Layer manages the solution as it is produced, including providing
                           standards for consistent solution specification and formal review of solution content.
                           This Layer provides control over work products that may be produced by multiple
                           internal and external developers using differing methodologies.


                                                                                                                                                                        Page 21
                    The Modernized e-File Project Can Improve the Management of
                            Expected Capabilities and Associated Costs



    •    The Methodology Layer details how to do the work and specifies a unique set of work
         products to be produced. Specific methodologies are not part of the ELC Framework.
    •    The Specialty Areas Layer provides additional guidance for areas of particular
         importance within the IRS. These areas include Enterprise Integration, Test, and
         Evaluation;1 Business Rules Harvesting2 and Management; Transition Management;3
         Enterprise Architecture; Capital Planning and Investment Control;4 Security and Privacy;
         and Requirements Development and Management.

ELC Paths
A path specifies a unique “philosophy” or orientation for performing the work. Although the
ELC specifies a standard for the work required to produce and operate business change solutions,
there are multiple ways to approach and accomplish the required work. Paths are like alternate
roads, each of which crosses different terrain, but all of which lead to the same destination. The
ELC provides five distinct paths or approaches to developing systems:
    •    The Large Custom Path is for large projects.
    •    The Small Custom Path is for small projects.
    •    The Commercial-Off-the-Shelf Path is a commercial software-based approach.
    •    The Joint Application Development/Rapid Application Development Path is a highly
         accelerated, prototyping-based approach for very small, standalone solutions or solution
         components.
    •    The Iterative Custom Path is a hybrid approach that combines elements of the other
         approaches.

ELC Phases and Milestones
A phase is a broad segment of work encompassing activities of similar scope, nature, and detail
and providing a natural breakpoint in the life cycle. Each phase begins with a kickoff meeting
and ends with an executive management decision point (called a milestone) at which IRS

1
  Enterprise Integration, Test, and Evaluation includes processes for integrating multiple components of a solution
and conducting various types and levels of testing on the solution.
2
  A business rule is a statement that defines or constrains some aspect of the business. Harvesting is a general term
used to broadly describe the entire set of activities involved in gathering, formalizing, analyzing, and validating
business rules for a particular scope.
3
  Transition Management helps ensure personnel and organizations are prepared to receive, use, operate, and
maintain the business processes and technology provided by business change solutions.
4
  The Capital Planning Investment and Control process manages a central portfolio of information technology
investments across the IRS.
                                                                                                             Page 22
                   The Modernized e-File Project Can Improve the Management of
                           Expected Capabilities and Associated Costs



executives make “go/no-go” decisions for continuation of a project. Project funding decisions
are often associated with milestones.
                                 Figure 2: ELC Phases and Milestones
                                                      General Nature                       Concluding
              Phase                                       of Work                           Milestone
 Vision and Strategy/              High-level direction setting. This is the only phase
                                                                                               0
 Enterprise Architecture Phase     for enterprise planning projects.
 Project Initiation Phase          Startup of development projects.                            1
 Domain Architecture Phase         Specification of the operating concept, requirements,
                                                                                               2
                                   and structure of the solution.
 Preliminary Design Phase          Preliminary design of all solution components.              3
 Detailed Design Phase             Detailed design of solution components.                    4A
 System Development Phase          Coding, integration, testing, and certification of
                                                                                              4B
                                   solutions.
 System Deployment Phase           Expanding availability of the solution to all target
                                   users. This is usually the last phase for development       5
                                   projects.
 Operations and Maintenance        Ongoing management of operational systems.               System
 Phase                                                                                     Retirement
Source: The ELC Guide.




                                                                                                        Page 23
            The Modernized e-File Project Can Improve the Management of
                    Expected Capabilities and Associated Costs



                                                                            Appendix V

                           Glossary of Terms

Term                                Definition
Bilateral Contract Modification     A bilateral contract modification is a
                                    contract modification that is signed by the
                                    contractor and the Contracting Officer.
                                    Bilateral modifications are used to make
                                    negotiated equitable adjustments resulting
                                    from the issuance of a change order,
                                    describe detailed terms of letter contracts,
                                    and reflect other agreements of the parties
                                    modifying the terms of contracts.
Byte                                A byte is commonly used as a unit of
                                    storage measurement in computers,
                                    regardless of the type of data being stored.
                                    It is also one of the basic integral data types
                                    in many programming languages.


                                                         Popular Use and
                                                        Standard Meaning

                                                 Name       Symbol    Quantity

                                             kilobyte         KB       210 (103)

                                             megabyte         MB       220 (106)

                                             gigabyte         GB       230 (109)

                                             terabyte         TB      240 (1012)




                                                                                   Page 24
            The Modernized e-File Project Can Improve the Management of
                    Expected Capabilities and Associated Costs




Term                                  Definition
Cost-Plus-Fixed-Fee Contract          A cost-plus-fixed-fee contract is a
                                      cost-reimbursement contract that provides
                                      for payment to the contractor of a
                                      negotiated fee that is fixed at the inception
                                      of the contract. The fixed fee does not vary
                                      with actual cost but may be adjusted as a
                                      result of changes in the work to be
                                      performed under the contract.
Cost-Plus-Fixed-Fee (Completion)      A cost-reimbursement contract typically
Contract                              used when the contractor is to complete and
                                      deliver a specified end product within the
                                      estimated cost as a condition for payment
                                      of the entire fixed fee.
Cost-Plus-Fixed-Fee (Term) Contract   A cost-reimbursement contract used when
                                      work is stated in general terms and the
                                      contractor is to provide a specific level of
                                      effort within a definite term or stated time
                                      period.
Cost-Plus-Incentive-Fee Contract      A cost-plus-incentive-fee contract is a
                                      cost-reimbursement contract that provides
                                      for an initially negotiated fee to be adjusted
                                      later by a formula based on the relationship
                                      of total allowable costs to total target costs.
Deferral                              A deferral is an approved request for
                                      verification of a requirement or set of
                                      requirements to be moved to another phase
                                      of testing.
Electronic Management System          The Electronic Management System
                                      provides telecommunication structure,
                                      security, and data management support for
                                      electronic commerce, including electronic
                                      filing of tax returns.




                                                                                Page 25
              The Modernized e-File Project Can Improve the Management of
                      Expected Capabilities and Associated Costs




Term                                       Definition
Enterprise Life Cycle                      The ELC is a structured business systems
                                           development method that requires the
                                           preparation of specific work products
                                           during different phases of the development
                                           process.
Excise Tax e-File and Compliance           The Excise Tax e-File and Compliance
                                           project will assist IRS agents who are
                                           assessing compliance on diesel fuel taxes.
Exhibit 300                                Exhibit 300 is a Capital Asset Plan and
                                           Business Case required by the Office of
                                           Management and Budget.
Extensible Markup Language                 Extensible markup language is the
                                           universal format for structured documents
                                           and data on the Internet.
Federal Acquisition Regulation             The Federal Acquisition Regulation is
                                           established for the codification and
                                           publication of uniform policies and
                                           procedures for acquisitions by all
                                           Executive Branch agencies.
Federal/State Single Point Filing System   The Federal/State Single Point Filing
                                           System permits tax return transmitters to
                                           submit multiple Federal and State tax
                                           return types within one transmission.
Fixed-Price Task Order                     A fixed-price task order or contract sets a
                                           price that is not subject to any adjustment
                                           because of cost overruns incurred by the
                                           contractor.
Full-Time Equivalent                       A FTE is a measure of labor hours in which
                                           1 FTE is equal to 8 hours multiplied by the
                                           number of compensable days in a particular
                                           fiscal year.




                                                                                    Page 26
            The Modernized e-File Project Can Improve the Management of
                    Expected Capabilities and Associated Costs




Term                                   Definition
Information Technology Modernization   The Information Technology
Vision and Strategy                    Modernization Vision and Strategy
                                       establishes a 5-year plan that drives
                                       investment decisions, addresses the
                                       priorities around modernizing front-line tax
                                       administration and supporting technical
                                       capabilities, and leverages existing systems
                                       (where possible) and new development
                                       (where necessary) to optimize capacity,
                                       manage program costs, and deliver
                                       business value on a more incremental and
                                       frequent basis.
Infrastructure Shared Services         The Infrastructure Shared Services is a
                                       program to build and deliver an agile
                                       infrastructure that is scalable,
                                       interoperable, flexible, manageable, and
                                       features standardized operations and a
                                       single security and enterprise systems
                                       management framework.
Logical Design                         Logical design describes the functions
                                       required of a system; that is, what is to be
                                       done, not how it will be done. Logical
                                       design is concerned with the processes to
                                       be performed.
Milestone                              A milestone provides for “go/no-go”
                                       decision points in a project and is
                                       sometimes associated with funding
                                       approval to proceed.
Modernized e-File Project              The MeF Project develops the modernized,
                                       web-based platform for filing
                                       approximately 330 IRS forms
                                       electronically, beginning with the
                                       Form 1120, Form 1120S, and Form 990.
                                       The Project serves to streamline filing
                                       processes and reduce the costs associated
                                       with a paper-based process.


                                                                                Page 27
            The Modernized e-File Project Can Improve the Management of
                    Expected Capabilities and Associated Costs




Term                                Definition
Physical Design                     Physical design describes how the
                                    processing will be performed; for example,
                                    whether data is input by a person or read by
                                    a bar code reader, whether a file is
                                    electronic or print. Tools to represent the
                                    physical design include system flow charts
                                    and structure charts.
Platform                            A platform is a computer system on which
                                    application programs can run.
PRIME Contractor                    The PRIME contractor is the Computer
                                    Sciences Corporation, which heads an
                                    alliance of leading technology companies
                                    brought together to assist with the IRS’
                                    efforts to modernize its computer systems
                                    and related information technology.
Release                             A release is a specific edition of software.
Requirement                         A requirement is a formalization of a need
                                    and is the statement of a capability or
                                    condition that a system, subsystem, or
                                    system component must have or meet to
                                    satisfy a contract, standard, or
                                    specification.
Undefinitized Contract Action       An undefinitized contract action is any
                                    contract action (e.g., letter contract, task
                                    order, delivery order, change order,
                                    supplemental agreement, etc.) that
                                    authorizes the beginning of work prior to
                                    the establishment of the terms,
                                    specifications, or price.




                                                                              Page 28
            The Modernized e-File Project Can Improve the Management of
                    Expected Capabilities and Associated Costs




Term                                Definition
Unilateral Contract Modification    A unilateral contract modification is a
                                    modification that is signed only by the
                                    Contracting Officer. Unilateral
                                    modifications are used to make
                                    administrative changes, issue change
                                    orders, make changes authorized by clauses
                                    other than a change clause (e.g., property
                                    clause, options clause, or suspension of
                                    work clause), and issue termination notices.




                                                                           Page 29
    -                                                                                                        P




         The Modernized e-File Project Can Improve the Management of
i               Expected Capabilities and Associated Costs




                                                                                                       Appendix VI

    Management's Response to the Draft Re@


                                   DEPARTMENT OF THE TREASURY
                                                                                         RECEIVED
                                       INTERNAL REVENUE SERVICE
                                         W A S H I N G T O N . D.C. 20224
                                                                                         NOV 1 6 2006




      MEMORANDUM FOR DEPUTY INSPECTOR GENERAL FOR AUDm
      FROM:                       r dspin
                             ~i~hah             -6
      SUBJXT                 DnftAuditReport-ThsModmizedeFilePmjectCm~veths
                             Manapmu of Expectd Capabiitia and A s s o c i i Cost8 (Audit
                             UUKl(iZ013)(i-Tnk 2007-17686)

      Thank you for thc m t y to review thc nrbjact draft ddit report md to meet with the mdit
      team to discuss &or draft rcwrt observations. As a mlt of thtse meecingm.
                                                                             - thc audit twm has
      incoprated SOI;IC of oar m&om       into the draft r q n t

      We appnciate thc ocknowlsdgansDt that the Modssnimde m Project     completedfortr
      succarsful releases W m n Eicbruary ulW and Jmuary u)06. Tha   alw &owledged tbe




      We also nckaowledge and Ippnciatethe audit tsrm's advice on waya to ftutber devdop the MeF
      project. W e arc coaarned that some. of the statemmta contaked m thc draft .udit report could
      be misinurpnzcd;therefom, wa cannot fully agne with all of the Icport's c ~ m n t l ywordtd
      recommmdatiomx

      Specifically. our conctrns me:

          1. T h e t s p o l t s h t e s , ~ M e F P m ~ s p b f o r ~ g a d d i t i o n a l t a r ~ a r c
             uncertain, including plans to schedule dmlopment of thc U.S.Individual IncomeTax
             Retum (Fonn 1040) family, which me p&g           q m v a l h u the Office of Management
             and Budget."

             'Zhs MeF project providedthe audit team with a defined aeqmciog plan that was
             developed in colllrboIption with our business pcrrtwrri. ?his plan. communicated to all
             levels of the IRS and to Treasury rmd the Offia of hhapmmt rmd Budget (OMB). is in
             the execution style. Tha scheduled imp-               dnte for Rel-   5 is J m u q 2CKl8.
             The current sequencing plan outlines the dcvelopmmt and deployment of the 1040 family
             of fonas scross three rckases with the implemcntationof the first release schsduled for




                                                                                                             Page 30
The Modernized e-File Project Can Improve the Management of
        Expected Capabilities and Associated Costs




                                                      Page 31
The Modernized e-File Project Can Improve the Management of
        Expected Capabilities and Associated Costs




                                                      Page 32
The Modernized e-File Project Can Improve the Management of
        Expected Capabilities and Associated Costs




                                                      Page 33
The Modernized e-File Project Can Improve the Management of
        Expected Capabilities and Associated Costs




                                                      Page 34
The Modernized e-File Project Can Improve the Management of
        Expected Capabilities and Associated Costs




                                                      Page 35
The Modernized e-File Project Can Improve the Management of
        Expected Capabilities and Associated Costs




                                                      Page 36
The Modernized e-File Project Can Improve the Management of
        Expected Capabilities and Associated Costs




                                                      Page 37
